\

. No. 19-1243

IN THE
SUPREME COURT OF THE UNITED STATES

Arthur O. Armstrong,
Petitioner

v.
Wilson County, et al
Respondents.
PROOF OF SERVICE
,J------ MhurO. Armstrong------do swear or declare that on this date, June 27.2020 as
required by the Supreme Court Rule 29.1,1 have served the enclosed petition for
Rehearing, pursuant to Rule 44 of the Supreme Court Rules of Appellate Procedure on
each party in the above proceeding, or that party's counsel and every other person
\

required to be served by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third party commerical carrier for delivery within 3 calendar
daysiSolicitor General of the United States, Room 5616 Department of Justice. 9SO
Pennsylvania Avenue, N.W. Washington, DC 20530.0001
\

I declare under penalty of perjury that the foregoing is true and
Executed on June 27,2020.

/

correct.

,/

l

1

